TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Virtual Server Technology Has Been
                  Successfully Implemented, but Additional
                  Actions Are Needed to Further Reduce the
                   Number of Servers and Increase Savings



                                          March 30, 2012

                              Reference Number: 2012-20-029




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                  HIGHLIGHTS


VIRTUAL SERVER TECHNOLOGY HAS                         environment. As of the end of Fiscal Year 2011,
BEEN SUCCESSFULLY IMPLEMENTED,                        the IRS had approximately 1,800 virtual servers
BUT ADDITIONAL ACTIONS ARE                            operating on 234 physical host servers in the
NEEDED TO FURTHER REDUCE THE                          virtual environment, resulting in the previously
                                                      stated decrease in equipment and electrical
NUMBER OF SERVERS AND INCREASE
                                                      costs.
SAVINGS
                                                      The IRS does not have a plan for virtualizing
                                                      Wintel servers at its field offices outside of the
Highlights                                            13 data center locations. The IRS estimates
                                                      there are approximately 650 Wintel servers in its
Final Report issued on March 30, 2012                 field locations that can be decommissioned and
                                                      added to the virtual server environment. By
Highlights of Reference Number: 2012-20-029           virtualizing these servers, the IRS estimates it
to the Internal Revenue Service Chief                 could realize additional savings of approximately
Technology Officer.                                   $7.73 million ($7.26 million in equipment savings
                                                      and $0.47 million in electrical savings over
IMPACT ON TAXPAYERS                                   five years). Aside from the cost savings, these
                                                      actions also help the IRS to meet Federal Data
The IRS implemented server virtualization
                                                      Center Consolidation Initiative goals.
technology to reduce the number of Wintel
servers needed for tax administration and lower       WHAT TIGTA RECOMMENDED
operational costs to the taxpayers. As of the
end of Fiscal Year 2011, the IRS estimated that       TIGTA recommended that the Chief Technology
server virtualization had saved approximately         Officer 1) develop and implement a process to
$10.2 million in equipment costs, and it expects      identify servers currently located in field offices
to save approximately $1.3 million annually in        that can be virtualized and 2) create and
decreased electrical costs beginning in Fiscal        implement a plan to virtualize those servers.
Year 2013. The number of Wintel servers could         In their response to the report, IRS management
be further reduced for increased efficiency and       concurred with both recommendations. The IRS
cost savings of approximately $7.73 million.          plans to 1) develop and implement a process to
WHY TIGTA DID THE AUDIT                               identify servers located in field offices that can
                                                      be virtualized and 2) create and implement a
This review was included in our Fiscal                plan to virtualize those servers.
Year 2011 Annual Audit Plan and addresses the
major management challenge of Modernization.
The overall objective of this review was to
evaluate the effectiveness and efficiency of the
IRS’s efforts to consolidate and virtualize its
servers. In addition, the Federal Data Center
Consolidation Initiative was passed in
February 2010, mandating a reduction in the
number of Federal data centers.
WHAT TIGTA FOUND
The IRS successfully implemented server
virtualization technology to improve server
efficiency and realize cost savings. The Server
Consolidation and Virtualization Project focused
on establishing a virtual server infrastructure and
moving approximately 2,500 physical Wintel
servers at 13 data center locations to the virtual
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 30, 2012


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Virtual Server Technology Has Been Successfully
                             Implemented, but Additional Actions Are Needed to Further Reduce
                             the Number of Servers and Increase Savings (Audit # 201120014)

 This report presents the results of our review of the Internal Revenue Service’s efforts to
 consolidate and virtualize its servers. This review was included in the Treasury Inspector
 General for Tax Administration’s Fiscal Year 2011 Annual Audit Plan and addresses the major
 management challenge of Modernization.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
 Services), at (202) 622-5894.
                     Virtual Server Technology Has Been Successfully Implemented,
                          but Additional Actions Are Needed to Further Reduce
                               the Number of Servers and Increase Savings




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Internal Revenue Service Has Successfully Deployed
          the Technology and Infrastructure to Consolidate and
          Virtualize Wintel Servers at Select Data Centers ......................................... Page 3
          Plans Are Needed to Study and Address the Challenges of
          Virtualizing the Remaining Wintel Servers and to Maximize
          the Benefits of Server Virtualization ............................................................ Page 4
                    Recommendations 1 and 2: ................................................ Page 5


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 6
          Appendix II – Major Contributors to This Report ........................................ Page 9
          Appendix III – Report Distribution List ....................................................... Page 10
          Appendix IV – Outcome Measures............................................................... Page 11
          Appendix V – Management’s Response to the Draft Report ...................... Page 12
        Virtual Server Technology Has Been Successfully Implemented,
             but Additional Actions Are Needed to Further Reduce
                  the Number of Servers and Increase Savings




                       Abbreviations

FDCCI            Federal Data Center Consolidation Initiative
IRS              Internal Revenue Service
                  Virtual Server Technology Has Been Successfully Implemented,
                       but Additional Actions Are Needed to Further Reduce
                            the Number of Servers and Increase Savings




                                             Background

In 2007, the Internal Revenue Service’s (IRS) Infrastructure Roadmap Initiative concluded that
the IRS’s diverse and widely deployed server infrastructure would benefit from the results of a
consolidation and virtualization project. The initiative recommended a highly centralized,
consolidated, and virtualized future state for the IRS’s computing environment. In 2007, the
Virtualization Project Office was established to design and implement an enterprise-wide
virtualization environment. The Server Consolidation and Virtualization Project was initiated in
February 2007 and closed in December 2010.
Server virtualization is a technology that allows a number of virtual servers1 to run on one
physical host. The technology enables improved hardware utilization, electrical savings, and
reduced server replacement costs. Virtualization helps an information technology organization
improve efficiency and productivity by simplifying server deployment and administration. For
example, the impact of any hardware issues on a virtualized server can be minimized because the
applications and data on the affected server can be switched to other servers in the pool. This
allows for decreased server downtime due to hardware failure because the system can continue
running while the hardware is replaced.
Implementing virtualization technology at the IRS also supports the Federal Data Center
Consolidation Initiative (FDCCI). In February 2010, the Federal Chief Information Officer
launched the FDCCI, mandating a reduction in the number of Federal data centers. The FDCCI
aims to:
       Encourage the use of Green Information Technology2 by reducing the overall energy and
        real estate footprint of Federal Government data centers.
       Reduce the cost of data center hardware, software, and operations.
       Increase the overall information technology security posture of the Federal Government.
       Shift information technology investments to more efficient computing platforms and
        technologies.
The IRS has prepared a Data Center Consolidation Plan in response to direction from the Office
of Management and Budget and the FDCCI. The IRS’s approach to increase the efficiency of its


1
  A virtual server is not a physical machine. It co-resides and shares computer resources with other virtual servers
on a physical computer or host.
2
  Green Information Technology, also known as Green Computing, is the movement toward a more environmentally
friendly and cost-effective use of power and production in technology.
                                                                                                            Page 1
                  Virtual Server Technology Has Been Successfully Implemented,
                       but Additional Actions Are Needed to Further Reduce
                            the Number of Servers and Increase Savings



Wintel3 server resources is to use server consolidation and centralization to reduce the total
number of required physical servers and server locations. Wintel servers are located at IRS
Enterprise Computing Centers,4 campuses,5 and many other locations across the IRS. A primary
objective of the Server Consolidation and Virtualization Project was to reduce the number of
physical Wintel servers. The Project created a virtual infrastructure at 13 targeted locations to
virtualize approximately 2,500 physical servers managed by the IRS’s Enterprise Operations
organization. Wintel servers at other IRS field locations were not included in the scope of the
Server Consolidation and Virtualization Project. The virtual environment consists of a series
of high-end physical servers capable of hosting multiple virtual servers on each physical host.
As of the end of Fiscal Year 2011,6 approximately 1,800 virtual servers were operating on
234 physical host servers in the virtualized infrastructure.
We obtained Server Consolidation and Virtualization Project records and interviewed Project
management located in Portsmouth, New Hampshire; Hartford, Connecticut; and
Providence, Rhode Island, during the period March 2011 through January 2012. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




3
  A Wintel server is a server running a Microsoft Windows operating system with an Intel microprocessor.
4
  IRS Computing Centers support tax processing and information management through a data processing and
telecommunications infrastructure.
5
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
6
  A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
                                                                                                          Page 2
                   Virtual Server Technology Has Been Successfully Implemented,
                        but Additional Actions Are Needed to Further Reduce
                             the Number of Servers and Increase Savings




                                      Results of Review

The Internal Revenue Service Has Successfully Deployed the
Technology and Infrastructure to Consolidate and Virtualize Wintel
Servers at Select Data Centers
The Virtualization Project Office teamed with the Hewlett-Packard Company to aid the Server
Consolidation and Virtualization Project’s design and installation. The collaboration helped
ensure the IRS applied industry best practices to the project and allowed the IRS to prototype the
installation at the vendor’s facility to ensure the system would work properly. Through the IRS’s
Concept of Operations document, an Enterprise Life Cycle7 Plan was developed specifically for
an infrastructure deployment effort. At the project’s conclusion, project management teamed
with the contractor to produce a document of lessons learned, including recommendations and
approaches that can be used for similar future infrastructure deployment projects.
The Virtualization Project Office began installing the virtual infrastructure at selected data
centers in 2009. Monthly progress reports were sent to the Associate Chief Information Officer,
Enterprise Operations. The IRS required the Hewlett-Packard Company to track issues during
the project. The IRS Executive Steering Committee minutes and Business Performance Reports
show the project moved successfully to its completion in December 2010.
A process was set up to continue to virtualize servers at the target locations after the
project completion date. As of the end of Fiscal Year 2011, the IRS has virtualized all targeted
servers at the Andover, Massachusetts; Brookhaven, New York; and Philadelphia, Pennsylvania,
Campuses. Approximately 1,500 remaining Wintel servers at the targeted locations are expected
to be virtualized by the end of Fiscal Year 2012.
The goals of the Server Consolidation and Virtualization Project were successfully achieved on
time and within budget. The goal of the Project was to deploy the virtualization infrastructure
and begin converting physical servers to virtual machines. By the end of Fiscal Year 2011, the
project team had succeeded in establishing a virtual server environment with approximately
1,800 virtual servers running on 234 physical host servers at 13 data center locations
(nine campuses, three computing centers, and the New Carrollton Federal Building). This
conversion of physical servers to virtual servers is helping to reduce energy and server
replacement costs and improve operational efficiency. Reducing the number of physical servers
also supports the goals of the FDCCI.

7
 Enterprise Life Cycle is the approach used by the IRS to manage and effect business change. It provides the
direction, processes, tools, and assets for accomplishing business change in a repeatable and reliable manner.
                                                                                                             Page 3
                   Virtual Server Technology Has Been Successfully Implemented,
                        but Additional Actions Are Needed to Further Reduce
                             the Number of Servers and Increase Savings



Reducing the number of physical servers has also resulted in significant cost savings associated
with lower electrical output for fewer servers and hardware savings over one-for-one server
replacement. As of the end of Fiscal Year 2011, the IRS estimated that server virtualization had
saved approximately $10.2 million in equipment costs. The IRS also expects to save
approximately $1.3 million annually in decreased electrical costs beginning in Fiscal Year 2013.
The virtualized servers help lower operational costs through standardization, making it easier to
load or remove a server from the operating environment. Other benefits of virtualization
technology include decreased server hardware downtime and automatic load balancing.8
Virtualization technology enables the system to move data and processing before a server fails.
Automatic failover involves automatically moving an application to a standby server during a
failure or service event to prevent application downtime. The IRS realized failover benefits on
two separate occasions since it deployed its virtual infrastructure.

Plans Are Needed to Study and Address the Challenges of Virtualizing
the Remaining Wintel Servers and to Maximize the Benefits of Server
Virtualization
The Server Consolidation and Virtualization Project did not include Wintel servers in IRS field
offices outside of the 13 targeted locations. The Project has been closed for one year; however,
the IRS does not have a plan for virtualizing Wintel servers at its field office locations spread out
across the country. There are approximately 1,000 Wintel servers at remote locations that have
not been virtualized.
The objective of the Server Consolidation and Virtualization Project was to virtualize physical
servers at 13 targeted locations: nine campuses, three computing centers, and the New
Carrollton Federal Building. All of these locations have similar network characteristics, enabling
a standardized installation at each site. Servers outside of the targeted locations were eliminated
from the scope of the project due to network limitations that prevent these servers from being
virtualized and moved from the remote locations to one of the targeted locations. The Windows
Server Strategy Solutions and Standards Report from the Infrastructure Roadmap Initiative
states: “The capability of the enterprise network is a potential constraint when addressing
consolidation or virtualization. By centralizing all of the computing resources to a few locations,
the application traffic will change and could impact the network. There must be enough
bandwidth and throughput on the network to handle the new traffic patterns at each location.
The network latency between users and servers must be minimized to provide the response times
required by users. This must be taken into account when designing a consolidation and
virtualization plan.”



8
  Automatic load balancing refers to the even distribution of processing across available resources such as servers in
a network.
                                                                                                              Page 4
                      Virtual Server Technology Has Been Successfully Implemented,
                           but Additional Actions Are Needed to Further Reduce
                                the Number of Servers and Increase Savings



The IRS’s Data Center Consolidation Plan includes a goal to virtualize physical servers from
field locations into an appropriate data center virtual environment. The IRS cannot realize
maximum cost savings until it virtualizes the Wintel servers at its field locations and moves these
virtual machines onto host servers at the computing centers. IRS management estimates
approximately 650 of 1,000 Wintel servers in its field locations can be decommissioned and
added to the virtual server environment. By virtualizing the remote servers, IRS management
estimates it could realize additional savings of approximately $7.73 million ($7.26 million in
equipment savings and $0.47 million in electrical savings over five years). These actions would
also help the IRS reduce data center space and meet FDCCI goals.
The longer the IRS waits to virtualize the physical Wintel servers in its field locations, the older
these servers become. The IRS’s server inventory showed that 39 percent of the Wintel servers
in the non-targeted field offices reached end of life9 status during Fiscal Year 2011. For Fiscal
Year 2012, the percentage of aged Wintel servers will reach 48 percent. By effectively and
efficiently virtualizing the aged and remaining Wintel servers, the IRS will ensure it continues to
support the FDCCI and meet its own Data Center Consolidation Plan goals.

Recommendations
Recommendation 1: The Chief Technology Officer should develop and implement a process
to identify servers currently located in field offices that can be virtualized.
           Management’s Response: The IRS agreed with the recommendation. Enterprise
           Operations will develop and implement a process to identify servers currently located in
           field offices that can be virtualized.
Recommendation 2: The Chief Technology Officer should create and implement a plan to
virtualize the servers located in field offices that can be virtualized.
           Management’s Response: The IRS agreed with the recommendation. Enterprise
           Operations will create and implement a plan to virtualize the servers located in field
           offices that can be virtualized.




9
    End of life status describes a server that is aged and eligible for replacement after five years in operation.
                                                                                                                     Page 5
                   Virtual Server Technology Has Been Successfully Implemented,
                        but Additional Actions Are Needed to Further Reduce
                             the Number of Servers and Increase Savings



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate the effectiveness and efficiency of the IRS’s efforts to
consolidate and virtualize its servers. We evaluated servers managed by the Enterprise
Operations organization, as those were the servers included in the scope of the IRS’s Server
Consolidation and Virtualization Project. To accomplish our objective, we:
I.       Evaluated Server Consolidation and Virtualization Project management and results.
         A. Determined if project management for the Server Consolidation and Virtualization
            Project complied with the IRS Enterprise Life Cycle1 requirements and industry best
            practices.
             1. Reviewed Internal Revenue Manual requirements for preparing an Enterprise Life
                Cycle project plan.
             2. Obtained the Enterprise Life Cycle plan, tailored for an infrastructure deployment
                effort, for the project. We reviewed the project explanation and justification for
                how the Enterprise Life Cycle was adapted to meet the specific needs of the
                project.
             3. Compared the Enterprise Life Cycle plan obtained in I.A.2. to the project plan
                requirements obtained in I.A.1. to identify any plan requirements not met.
             4. Identified industry best practices for Windows server virtualization.
             5. Evaluated the IRS’s server virtualization project to determine if industry best
                practices were followed.
         B. Determined if the Server Consolidation and Virtualization Project was effectively
            implemented.
             1. Reviewed project documentation to identify the population of Wintel servers2 in
                the IRS and the number of Wintel servers that were identified for virtualization
                during the project.
             2. Determined if the project maximized the number of servers virtualized.



1
  Enterprise Life Cycle is the approach used by the IRS to manage and effect business change. It provides the
direction, processes, tools, and assets for accomplishing business change in a repeatable and reliable manner.
2
  A Wintel server is a server running a Microsoft Windows operating system with an Intel microprocessor.
                                                                                                             Page 6
                 Virtual Server Technology Has Been Successfully Implemented,
                      but Additional Actions Are Needed to Further Reduce
                           the Number of Servers and Increase Savings



            3. Evaluated the decision to close the Server Consolidation and Virtualization
               Project with only 37 percent of the Wintel servers virtualized.
            4. Evaluated procedures in place to continue virtualizing the remaining Wintel
               servers.
        C. Evaluated the accuracy of calculations to support project costs, cost savings, and
           return on investment.
            1. Obtained and evaluated for accuracy and reliability all documentation related to
               project costs and projected savings.
            2. Obtained and evaluated for accuracy and reliability all documentation to support
               actual cost savings claimed.
        D. Identified and evaluated actions that have been taken to address the lessons learned
           during the Wintel Server Consolidation and Virtualization Project.
            1. Identified lessons learned and documented in the Server Consolidation and
               Virtualization Initiative, Post Implementation Review Report, dated
               November 17, 2010.
            2. Identified actions taken by the IRS to address the problems in the lessons learned
               documentation and evaluated the sufficiency of the actions.
II.     Evaluated the monitoring, management, and reporting of server virtualization results and
        performance trends.
        A. Reviewed Executive Steering Committee minutes and Business Performance Review
           reports relating to server virtualization for Fiscal Years 2009, 2010, and 2011.3
            1. Identified problematic trends in virtualized systems noted in these documents.
            2. Obtained evidence that problems identified were effectively addressed.
        B. Interviewed project management to determine how they monitor and measure
           program performance.
            1. Identified the measures (i.e., key performance indicators) established for Fiscal
               Years 2010 and 2011 such as application and server performance, downtime, and
               availability.
            2. Identified tools used to monitor performance.



3
 A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
                                                                                                   Page 7
               Virtual Server Technology Has Been Successfully Implemented,
                    but Additional Actions Are Needed to Further Reduce
                         the Number of Servers and Increase Savings



           3. Identified the performance reports management used to evaluate strengths of
              virtualization performance (i.e., success) and gaps or weaknesses (i.e.,
              nonsuccess).
           4. Determined what load balancing and failover measures are in place to prevent or
              respond to failure of the host platform.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS policies and procedures for
deploying an information technology project. We evaluated these controls by interviewing
management and reviewing supporting documentation.




                                                                                         Page 8
               Virtual Server Technology Has Been Successfully Implemented,
                    but Additional Actions Are Needed to Further Reduce
                         the Number of Servers and Increase Savings



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Danny Verneuille, Director
Carol Taylor, Audit Manager
Myron Gulley, Acting Audit Manager
Joan Bonomi, Lead Auditor
Mark Carder, Senior Auditor
Kasey Koontz, Auditor




                                                                                      Page 9
              Virtual Server Technology Has Been Successfully Implemented,
                   but Additional Actions Are Needed to Further Reduce
                        the Number of Servers and Increase Savings



                                                                       Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer, Operations OS:CTO
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Controls OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                             Page 10
                Virtual Server Technology Has Been Successfully Implemented,
                     but Additional Actions Are Needed to Further Reduce
                          the Number of Servers and Increase Savings



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measures:
   Funds Put to Better Use – Potential; approximately $7.26 million in equipment savings (see
    page 4).
   Funds Put to Better Use – Potential; approximately $94,000 annually ($470,000 over
    five years) in electrical savings (see page 4).

Methodology Used to Measure the Reported Benefit:
The reported potential benefits are based on estimates calculated by and provided to us by IRS
management. There are approximately 1,000 physical Wintel servers in IRS field offices that
have not been virtualized. The IRS estimates that approximately 650 of those servers could be
candidates for replacement with virtual servers. If the servers are added to the virtual
environment and not replaced with new physical servers, the IRS estimates it would save
approximately $7.26 million in equipment costs. The IRS also estimates that decommissioning
the 650 physical servers in its field offices would generate annual energy savings of
approximately $94,000 ($470,000 over five years) based on the electrical cost savings of the
servers less the electrical cost of the additional hardware that would need to be added to the
virtual infrastructure environment.




                                                                                          Page 11
   Virtual Server Technology Has Been Successfully Implemented,
        but Additional Actions Are Needed to Further Reduce
             the Number of Servers and Increase Savings



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 12
Virtual Server Technology Has Been Successfully Implemented,
     but Additional Actions Are Needed to Further Reduce
          the Number of Servers and Increase Savings




                                                       Page 13
